U.S. SMALL BUSINESS ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL




             Report No. 12-01




              Fiscal Year 2012
Report on the Most Serious Management and
          Performance Challenges
 Facing the Small Business Administration




             October 21, 2011
                            U.S. SMALL BUSINESS ADMINISTRATION
                               OFFICE OF INSPECTOR GENERAL
                                  WASHINGTON, D.C. 20416


                                        October 21, 2011



MEMORANDUM


TO:            Karen G. Mills
               Administrator

FROM:          Peggy E. Gustafson /s/
               Inspector General

SUBJECT:       Fiscal Year 2012 Report on the Most Serious Management and
               Performance Challenges Facing the Small Business Administration

In accordance with the Reports Consolidation Act of 2000, we are providing you with the Office
of Inspector General’s (OIG) Fiscal Year (FY) 2012 Report on the Most Serious Management
and Performance Challenges Facing the Small Business Administration (SBA). This report
represents our current assessment of agency programs and/or activities that pose significant risks,
including those that are particularly vulnerable to fraud, waste, error, mismanagement, or
inefficiencies. The Challenges are not presented in order of priority, as we believe that all are
critical management or performance issues.

Our report is based on specific OIG, Government Accountability Office (GAO), and other
official reports, as well as our general knowledge of SBA’s programs and operations. Our
analysis generally considers those accomplishments that SBA reported as of September 30, 2011.

Within each Management Challenge, there are a series of “recommended actions” to resolve the
Challenge. Each recommended action is assigned a color “status” score. The scores are as
follows: Green for “Implemented”; Yellow for “Substantial Progress”; Orange for “Limited
Progress”, and Red for “No Progress”. An arrow in the color box indicates that the color score
either went up or down from the prior year. If a recommended action was added since last year’s
report, no color score has been assigned and the recommended action has been designated as
“New”.

As part of the OIG’s continuing evaluation of the Management Challenges, certain Challenges
have been updated or revised. In addition, actions that were scored Green last year, and which
remained Green this year, have been moved up to the “history bar” above the recommended
actions. The history bar highlights any progress that the agency has made on a Challenge over
the past four FYs (or as long as the Challenge has existed, if shorter) by showing the number of
actions that have moved to Green each year.

The following table provides a summary of the FY 2012 Most Serious Management and
Performance Challenges Facing SBA.

Table 1: Summary of the FY 2012 Most Serious Management and Performance Challenges Facing SBA.


                                                               Color Scores
                                                                                  Change from
                                               Status at End of FY 2011
                                                                                   Prior Year
                  Challenge            Green      Yellow    Orange        Red    Up      Down 
     1   Small Business Contracting      1                    2                   1         1
     2   IT Security                                 2        2                             1
     3   Human Capital                               1                     1                 1
     4   Loan Guaranty Purchase                      1                             1
     5   Lender Oversight                            4         2
     6   8(a) BD Program                             1         2           1                 3
     7   Loan Agent Fraud                            2
         Loan Management and
     8                                                         4
         Accounting System
     9   Improper Payments               3                     3                   3
            TOTAL                        4          11         15          2       5         6

We would like to thank SBA’s management and staff for their cooperation in providing us with
information needed to prepare this report. We look forward to continuing to work with SBA’s
leadership team in addressing the agency’s Management Challenges.
Contents

Challenge 1. Procurement flaws allow large firms to obtain small business awards and agencies to count
contracts performed by large firms towards their small business goals. ..................................................... 1


Challenge 2. Weaknesses in information systems security controls pose significant risks to the agency. . 2


Challenge 3. Effective human capital strategies are needed to enable SBA to carry out its mission
successfully and become a high-performing organization. .......................................................................... 3


Challenge 4. SBA needs to implement a quality assurance program in its loan centers. ............................ 4


Challenge 5. SBA needs to further strengthen its oversight of lending participants................................... 5


Challenge 6. The Section 8(a) Business Development program needs to be modified so more firms
receive business development assistance, standards for determining economic disadvantage are
justifiable, and SBA ensures that firms follow 8(a) regulations when completing contracts. ...................... 6


Challenge 7. Effective tracking and enforcement would reduce financial losses from loan agent fraud. .. 7


Challenge 8. SBA needs to modernize its Loan Accounting System and migrate it off the mainframe. ..... 8


Challenge 9. SBA needs to accurately report, significantly reduce, and strengthen efforts to recover
improper payments in the Disaster and 7(a) loan programs........................................................................ 9


Appendix: Relevant Reports....................................................................................................................... 10
Challenge 1. Procurement flaws allow large firms to obtain small business awards
and agencies to count contracts performed by large firms towards their small
business goals.

The Small Business Act establishes a government-wide goal that 23 percent of the total value of all prime
contract awards for each FY be awarded to small businesses. As the advocate for small business, SBA should
strive to ensure that only small firms obtain and perform small business awards and that procuring agencies
accurately report contracts awarded to small businesses when representing its progress in meeting small
business contracting goals.

OIG audits and other governmental studies have shown widespread misreporting by procuring agencies since
many contract awards that were reported as going to small firms have actually been performed by larger
companies. While some contractors may misrepresent or erroneously calculate their size, most of the incorrect
reporting results from errors made by government contracting personnel, including misapplication of small
business contracting rules. In addition, contracting officers do not always review the on-line certifications that
contractors enter into a governmental database prior to awarding contracts. SBA needs to ensure that
contracting personnel are adequately trained on small business procurement and are reviewing this database
prior to awarding contracts.

SBA also needs to address a loophole within General Services Administration (GSA) Multiple Awards
Schedule (MAS) contracts that contain multiple industrial codes. Currently, a company awarded such a
contract can identify itself as small on individual task orders awarded under that contract even though it does
not meet the size criteria for the applicable task. Thus, agencies may obtain small business credit for using a
firm classified as small, when the firm is not small for specific orders under the MAS contract.

SBA has made mixed progress on this challenge. In FY 2011, SBA progressed to a “Green” rating for its
efforts to develop a program to ensure that contracting personnel are reviewing contractor size certifications.
However, although they have been working on the development of training programs on small business
procurement for contracting personnel, updated courses have not been implemented. SBA also has committed
to improving the surveillance review process in response to an OIG audit to enhance its oversight of contract
awards and performance on set-aside contracts, but has yet to implement tangible changes. SBA also made
limited progress during FY 2011 in developing regulations to correct misapplication of industry codes on long-
term and multiple award set-aside contracts.

 Challenge History                               Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2005                 07-0                 08-1                 09-0          10-0
                                                                                                  Status at end of
                                Recommended Actions for FY 2012
                                                                                                     FY 2011
 1.   Develop and take steps to provide reasonable assurance that agencies are providing
      adequate basic and continuing education training to contracting personnel on small             Orange 
      business contracting procedures.
 2.   Revise the surveillance review process to ensure that they are conducted in a thorough and
                                                                                                       New
      consistent manner
 3.   Develop and implement a program that promotes accurate contractor certifications and
                                                                                                      Green 
      ensures that contracting personnel review contractor certifications. (Previously action #2)
 4.   Issue regulations that require firms to meet the size standard for each specific order they
      receive under a GSA schedule and Government-wide Acquisition Contract (GWAC) and                Orange
      show that the regulations are being followed. (Previously action #3)
             Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                          1
Challenge 2. Weaknesses in information systems security controls pose significant
risks to the agency.

The confidentiality, integrity, and availability of SBA’s information systems are vital to the continued
successful operation of the agency. While information technology (IT) can result in a number of benefits, such
as information being processed more quickly and communicated almost instantaneously, it can also increase
the risk of fraud, inappropriate disclosure of sensitive data, and disruption of critical operations and services.
SBA’s computer security program operates in a dynamic and highly decentralized environment and requires
management attention and resources as weaknesses are identified.

SBA improved in information system security in some critical areas during FY 2011. SBA updated
procedures disallowing users to connect unauthorized devices to the network and implemented network access
controls at SBA headquarters and has plans to extend network access controls to SBA field offices. The Chief
Information Security Officer instituted a review of all Plan of Action and Milestones (POA&M) for SBA IT
systems and began acquisition of an application to manage SBA’s IT systems.

To show further progress, SBA needs to address both known and newly reported information security issues.
For example, SBA needs to demonstrate a process that accomplishes timely mitigation of system risks that are
identified as “medium” and “high;” enforce an enterprise-wide configuration management process; and ensure
segregation of duties controls are in place and operating for all of its systems. SBA has improved in some
areas, however, the FY 2011 Financial Statement Audit has identified new weaknesses and findings and are
also anticipated for the FY 2011 Federal Information Security Management Act (FISMA) review.

 Challenge History                            Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 1999             07-2                  08-2                 09-0        10-0
                                                                                            Status at end of
                             Recommended Actions for FY 2012
                                                                                                FY 2011
 1. Access controls are in place and operating effectively, and contractors are not granted
    system access until they have obtained the required background investigations and/or         Yellow
    security clearances.
 2. System software controls are in place and operating effectively.                               Orange 

 3. Segregation of duty controls are in place and operating effectively.                            Orange 

 4. The POA&M accurately reports all computer security weaknesses and corrective actions.           Yellow
 5. The IT security management program is effective to address information security in
                                                                                              New
    systems that support the operations and assets of the organization.
          Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                          2
Challenge 3. Effective human capital strategies are needed to enable SBA to carry out
its mission successfully and become a high-performing organization.

During the past decade, facing budget constraints at the same time that virtually of all its programs were
growing significantly, SBA restructured key agency operations, reengineered its largest loan programs, and
downsized personnel levels. While these actions transformed the way SBA does business, the agency has not
adequately analyzed priorities and allocated resources consistent with those priorities and its new business
processes. As a result, there is no assurance that sufficient resources—in terms of both numbers of staff and
the knowledge and skills possessed by the staff—are available and appropriately deployed to perform critical
functions.

A recent review by the U.S. Office of Personnel Management (OPM) identified weaknesses in SBA’s human
capital policies and practices that highlight the serious human capital challenges facing the agency. The
review found that SBA did not meet over 40 percent of expected outcomes across five Human Capital
Assessment and Accountability Framework (HCAAF) areas—Strategic Alignment, Leadership and
Knowledge Management, Results-Oriented Performance Culture, Talent Management, and Accountability.
OPM traced many of the problems to the absence of an OPM-approved human capital accountability system
and a lack of leadership and direction when it comes to the strategic management of human capital at SBA.
For example, the OPM found that SBA’s human capital policies and procedures were not aligned with the
organizational objectives and strategic goals in its FY 2011-2016 Strategic Plan. Further, there was no
evidence that SBA engaged in any recent agency-wide workforce planning or competency gap analyses to
estimate the staffing and skill levels needed to achieve the agency’s performance goals and mission.

The results of the Federal Human Capital Surveys—now called the Employee Viewpoint Survey (EVS)—also
have highlighted SBA’s serious human capital challenges. SBA has consistently ranked near the bottom on all
four human capital indices—Leadership and Knowledge Management, Results-Oriented Performance Culture,
Talent Management, and Job Satisfaction. While the agency showed some improvement in the 2011 EVS, it
still fell below the government wide average on the four human capital indices. In addition, SBA was 29 out
of 31 large agencies in the Partnership for Public Service’s 2010 “Best Places to Work” rankings (the 2011
rankings will be available in November 2011).

 Challenge History                          Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2001
 (Revised 2007)                          07-0               08-0               09-0               10-0
                                                                                             Status at end of
                           Recommended Actions for FY 2012
                                                                                                FY 2011
 1. Ensure the agency has an effective, comprehensive workforce and succession plan that
    aligns talent needs and capabilities with SBA’s FY 2011-2016 Strategic Plan. SBA’s
    workforce and succession planning goals should reflect the need to recruit and retain the Red 
    appropriate talent, and should establish appropriate metrics to gauge SBA’s success at
    having the right people, in the right jobs, at the right time. (Previously action #3)
 2. Ensure the Office of Human Capital Management (OHCM) is structured and equipped so
    as to add value by delivering needed strategic support and services such as continuity
                                                                                               New
    planning, talent management, organizational development, and strategic consulting to
    implement the agency’s human capital plan and its mission.
 3. Ensure that Human Capital Management Standard Operating Procedures (SOPs) are
    updated and appropriately structured to support the agency’s long-term goals and           New
    objectives and government-wide Human Capital Management initiatives.
 4. Take steps to correct problems identified in the 2010 EVS. Demonstrate improvement by
                                                                                              Yellow
    increasing overall scores/agency rankings in the 2011 EVS. (Previously action #2)
           Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress



                                                      3
Challenge 4. SBA needs to implement a quality assurance program in its loan centers.

The initial focus of this challenge was on improving deficiencies identified in SBA loan liquidation and
guaranty purchase processes. Over the last decade, the agency has made significant progress to improve these
processes at its loan centers, but a significant deficiency continues to exist in the area of quality assurance.

The Office of Financial Program Operations has made progress in developing a Quality Assurance Review
(QAR) program for all of its loan centers to verify and document compliance with the loan process, from
origination to close-out, and to identify where material deficiencies may exist so that remedial action can be
taken. A QAR project guide has been developed and agreed upon by relevant parties within the Office of
Capital Access. The QAR program will assess the overall quality of the centers’ deliverables to provide
confidence to its stakeholders. SBA hired a quality control (QC) manager to oversee the development of the
program and identified a QC specialist for each center. Furthermore, a QC team was established and has
(1) identified existing processes and ranked the functions within the centers as high, moderate and low risk,
(2) identified and ranked critical areas that the centers will focus on for quality control, and (3) developed and
documented Quality Program Manuals for each center. The QC team has also developed and implemented
checklists for each critical center function and developed quality and risk element databases to be utilized for
quality metrics.

While SBA has made substantial progress in its development of a quality assurance program, additional work
remains before SBA can demonstrate that all elements of the program are being completed and followed. For
example, an ongoing audit found that the early default QAR checklist used at the National Guaranty Purchase
Center does not require an adequate review of lender compliance with material loan origination and closing
requirements including eligibility, creditworthiness, and use of loan proceeds. Prior OIG audits identified
material noncompliance in these areas, which resulted in improper payments and significant loss to SBA.
Therefore, a thorough review of eligibility, creditworthiness, and use of loan proceeds is critical to the quality
of the center’s deliverables and the integrity of the 7(a) loan program.

 Challenge History                       Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2001         07-0              08-2             09-0               10-1
                                                                                       Status at end of
                             Recommended Action for FY 2012
                                                                                           FY 2011
 1. Implement a Quality Assurance Program for all SBA loan centers.                                  Yellow 
           Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                         4
  Challenge 5. SBA needs to further strengthen its oversight of lending participants.

Since its inception in 1953, SBA has loaned or guaranteed billions of dollars to finance and spur investment in
small businesses. In fiscal year 2011, approximately 67 percent of the 7(a) loan dollars guaranteed by SBA
were made by lenders using delegated authorities with limited oversight. Prior OIG and GAO reports,
including an OIG report issued in May 2008 disclosed that (1) onsite lender examinations did not adequately
assess lender risk and were limited in scope, (2) reviews were not conducted of high-risk, medium sized
lenders, and (3) SBA did not take adequate risk mitigation measures to hold lenders accountable for their
performance. High-risk lenders account for approximately 35 percent of SBA’s 7(a) outstanding loan dollars
made by active lenders. The risks inherent in delegated lending require an effective oversight program to
(1) monitor lenders compliance with SBA policies and procedures, and (2) take corrective actions when a
material noncompliance is detected.

The agency has made significant progress in its oversight of lenders in its 7(a) and 504 loan programs since
this management challenge was created in 2001. For example, SBA expanded the scope of its oversight by
more than doubling the number of on-site reviews of large high-risk lenders. In September 2006, the agency
issued SOP 51 00, On-site Lender Reviews and Examinations, to guide the on-site review process. The agency
also modified its Lender Risk Rating System to further strengthen lender risk assessments. In October 2010,
SBA issued SOP 50 53, Lender Supervision and Enforcement, which established an oversight framework
including enforcement actions to be taken against lenders with unacceptable performance. SBA also recently
completed its risk management assessment and plans to (1) re-stratify its oversight activities to better target
high-risk lenders and Certified Development Companies (CDCs), (2) expand its assessment of risk, and (3) use
statistical samples so that onsite review results can be extrapolated to the lenders’ total portfolios.

Although the agency has made progress, it needs to demonstrate consistent adherence to its procedures and
ensure that corrective action plans effectively address material noncompliance and actually improves the
performance of high-risk lenders.

                                          Actions Accomplished (Green Status) during Past 4 FYs
 Challenge History
 Fiscal Year (FY) Issued: 2001       07-7(a)-0        08-7(a)-2        09-7(a)-0           10-7(a)-0
                                     07-504-1         08-504-2          09-504-0           10-504-0
                                                                                     Status at end of
                          Recommended Actions for FY 2012                               FY 2011
                                                                                            7(a)        504
 1. Expand the scope of lender oversight and improve the process for reviewing lenders
                                                                                          Yellow      Yellow
    and CDCs for compliance risks.
 2. Implement guidance providing for effective oversight of lending programs.             Yellow      Yellow

 3. Ensure that effective corrective actions are implemented, monitored, and result in
                                                                                       Orange   Orange
    improvement in the performance of participants with unacceptable performance.
          Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                        5
Challenge 6. The Section 8(a) Business Development program needs to be modified
so more firms receive business development assistance, standards for determining
economic disadvantage are justifiable, and SBA ensures that firms follow 8(a)
regulations when completing contracts.

SBA’s 8(a) Business Development (BD) program was created to assist eligible small disadvantaged business
concerns to compete in the American economy through business development.

Previously, the agency did not place adequate emphasis on business development to enhance the ability of 8(a)
firms to compete, and did not adequately ensure that only 8(a) firms with economically disadvantaged owners
in need of business development remained in the program. Companies that were “business successes” were
allowed to remain in the program and continue to receive 8(a) contracts, causing fewer companies to receive
most of the 8(a) contract dollars and many to receive none.

SBA made progress in the past towards addressing issues raised by this management challenge that hinder the
agency’s ability to deliver an effective 8(a) program. This progress included increased training of relevant
SBA personnel, improvements in the agency’s ability to provide business development skills to program
participants, and taking steps to ensure that owners of 8(a) firms that were no longer economically
disadvantaged were removed from the program. However, during the past year it regressed. The BD Office
had developed a data base (the BD Assessment Tool) to track participant progress, but it has now concluded
that the system does not provide the best way to measure business success. Accordingly, SBA is planning to
award a contract shortly to develop and deploy a new system to provide SBA employees to monitor program
participants, which it expects to deploy by December 2012. SBA took a positive step by revising its
regulations in March 2011 to ensure that companies that are “business successes” are graduated out of the
program, and by working to update its SOP for the BD program to reflect these regulatory changes. The new
regulations also establish additional standards to address the definition of “economic disadvantage,” however,
the agency has not provided an economic analysis to justify these standards. A recent OIG audit also found
that the agency was not effectively performing surveillance reviews to determine whether contracting activities
complied with small business and 8(a) requirements. SBA needs to update the relevant SOP governing
surveillance reviews for the BD program.

Challenge History                                 Actions Accomplished (Green Status) during Past 4 FYs
Fiscal Year (FY) Issued: 2003                 07-1                  08-1               09-1            10-0
                                                                                                 Status at end of
                                Recommended Actions for FY 2012
                                                                                                     FY 2011
1.   Develop and implement a plan, including SOP provisions, which ensures that the 8(a) BD
     program identifies and addresses the business development needs of program participants on     Orange 
     an individualized basis.
2.   Develop and implement Regulations and SOP provisions to ensure that participants are
                                                                                                      Yellow
     graduated once they reach the levels defined as business success.
3.   Establish objective and reasonable criteria that effectively measures “economic
                                                                                                      Red 
     disadvantage” and implement the new criteria.
4.   On a regular basis, conduct surveillance reviews of procuring agencies to ensure they are
     effectively monitoring and enforcing compliance with specified 8(a) BD regulations on the      Orange 
     contracts they administer.
             Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                         6
Challenge 7. Effective tracking and enforcement would reduce financial losses from
loan agent fraud.

For more than a decade, OIG investigations have revealed a pattern of fraud in the 7(a) business loan guaranty
program by loan packagers and other for-fee agents. Fraudulent schemes have involved hundreds of millions
of dollars, yet SBA oversight of loan agents has been limited, putting taxpayer dollars at risk. The agency
could reduce this risk by establishing effective loan agent disclosure requirements, a database or equivalent
means to track loan agent involvement with its loans, and a more effective agent enforcement program.

Tracking Loan Agent Data. Over the years, in response to this Management Challenge, SBA has proposed
various methods of tracking loan agent activity. At one point, SBA proposed to revise its E-Tran system
(which collects loan data electronically from participating lenders) to collect loan agent information. The
agency later concluded that this approach was not feasible. At the end of FY 2007, SBA proposed a new
approach to integrate information from the Form 159 (which asks for information about loan agents) into the
Form 1502 electronic data collection process by SBA’s Fiscal and Transfer Agent (FTA). The OIG revised
recommended action #1 below, but SBA made no progress on it during FY 2008, in part due to a protest of the
award of the FTA contract. At the end of FY 2009, SBA presented a succinct plan for implementing the 1502
approach. However, during FY 2010, SBA again changed its position, and advised that it would capture the
data by having the Form 159 faxed to the FTA. At the end of FY 2010, SBA issued a notice with directions on
how this data was to be submitted. During FY 2011, the agency instructed lenders how to submit Form 159
data (including loan identification numbers) to the FTA, analyzed the data, and updated loan review guidance
so that the Office of Credit Risk Management (OCRM) could identify loan agent-related problems. Although
loan agent data does not appear in the Loan Accounting System (LAS), SBA officials stated that it could be
linked to LAS through a virtual database. It is not yet clear whether such a process would be user-friendly for
non-technical users. Finally, SBA issued the loan agent data collection requirement in an SOP effective
October 1, 2011.

Loan Agent Enforcement Procedures. In FY 2007, the agency made progress by issuing its Lender Oversight
SOP and by previously revising the guaranty purchase checklist (which lists the records that lenders need to
provide when requesting SBA to pay a guaranty) to include the submission of the Form 159. However, the
agency also needed to establish a more effective enforcement program to deter fraudulent loan agent activity.
Effective October 1, 2010, SBA issued a Lender Supervision and Enforcement SOP with provisions for loan
agent enforcement actions and a delegation of authority to the Director of OCRM. However, the agency
recently advised that this SOP needed to be revised to implement more effective procedures.

 Challenge History                           Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2000             07-1               08-1               09-0-           10-0
                                                                                          Status at end of
                            Recommended Actions for FY 2012
                                                                                               FY 2011
 1. Develop an effective method of disclosing and tracking loan agent involvement in SBA
    business loan programs.                                                                     Yellow
 2. Implement procedures for enforcement actions against loan agents for improper and
    fraudulent conduct.                                                                         Yellow
          Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                      7
Challenge 8. SBA needs to modernize its Loan Accounting System and migrate it off
the mainframe.

In November 2005, SBA initiated the Loan Management and Accounting System (LMAS) project to update
the agency’s Loan Accounting System and migrate it off of the mainframe. Previous OIG reports noted that
the system was close to the end of its expected useful life, relied on obsolete technology, contained major
security vulnerabilities that could not be addressed until the system was moved to a new operating platform,
and was costly to operate. Additionally, the OIG reported concerns about SBA’s management of the project;
the project’s noncompliance with the agency’s System Development Methodology (SDM) in key areas, which
impacts SBA’s ability to control project costs and quality; and the lack of an enterprise-wide or project-level
Quality Assurance (QA) function to ensure that LMAS deliverables met SBA’s requirements and quality
standards. Finally, the OIG reported that the LMAS QA contractor had not performed all of the activities
stipulated in its contract and that none of the issued LMAS task orders had undergone Independent Validation
and Verification (IV&V) testing.

In 2009, SBA contracted with McKinsey & Company to conduct a review of the LMAS project. This review
identified multiple weaknesses in SBA’s LMAS project management activities and recommended (1) focusing
on core mainframe legacy platform replacement, (2) strengthening project governance, (3) increasing project
team resources, (4) focusing on COTS capabilities while minimizing customization, and (5) improving vendor
management.

In 2010, OMB issued Memorandum 10-26, recommending that Federal agencies split large-scale
modernization efforts into smaller, simpler segments with clear deliverables. In response, SBA changed its
strategy for LMAS going forward to accelerate the migration of user interfaces from the mainframe legacy
platform to the agency’s current architecture, and convert batch COBOL systems from the mainframe to a
more current and platform-independent environment. SBA staffed its IT QA function and created a new SOP
to provide guidance for its IT QA program. However, to show further progress, SBA needs to implement its
QA/IV&V process that encompasses all of the requirements of its enterprise SDM, and provide sufficient
evidence that all LMAS work products undergo IV&V activities in accordance with the agency’s Enterprise
Quality Assurance Plan.

 Challenge History                               Actions Accomplished (Green Status) during Past 4 FYs
 Fiscal Year (FY) Issued: 2010                N/A                 N/A               N/A             10-0
                                                                                               Status at end of
                                Recommended Actions for FY 2012
                                                                                                   FY 2011
 1.   Migrate LAS to a new operating platform before the current mainframe contract expires in
                                                                                                   Orange
      2012.
 2.   Modify the LMAS QA/IV&V contract and establish an effective Quality Assurance (QA)
      process which provides senior management independent assurance that LMAS                     Orange
      development activities and related project deliverables meet SBA Quality standards.
 3.   Establish a process for reviewing and accepting LMAS deliverables that complies with
                                                                                                   Orange
      Systems Development Methodology requirements.
 4.   Implement a Quality Assurance process in LMAS in accordance with SBA’s Enterprise
                                                                                                   Orange
      Quality Assurance Plan.
             Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress




                                                        8
Challenge 9. SBA needs to accurately report, significantly reduce, and strengthen
efforts to recover improper payments in the Disaster and 7(a) loan programs.

OIG audits of SBA’s Disaster and 7(a) Loan programs determined that the improper payment rates reported for
these programs were significantly understated. SBA estimated that improper payments in the Disaster Loan
program were about $4.5 million, or 0.55 percent of loans approved in FY 2007, while the OIG reported that it
was at least 46 percent, or approximately $1.5 billion. SBA also reported that the improper payment rate for 7(a)
purchases was 0.53 percent of FY 2008 program outlays, although the OIG estimated the rate to be 27 percent, or
approximately $234 million. SBA’s improper payment rates were understated because the agency did not
adequately review sampled loans, used flawed sampling methodologies, and did not accurately project review
findings for both programs. Additionally, the Office of Financial Assistance (OFA) inappropriately overturned
improper payments identified by reviewers.

OIG audits in prior years have also identified high percentages of disaster and business loans that were made to
borrowers who were ineligible, lacked repayment ability, or did not provide the required support for loan
disbursement. In 2009, we reported that over 30 percent of reviewed disaster loans were disbursed for properties
that were not the applicant’s primary residence and identified an estimated $30 million in improper loan guaranty
purchases in the 7(a) program. Furthermore, a recent OIG audit estimated that at least 1,196 7(a) Recovery Act
loans were not originated and closed in compliance with SBA requirements, resulting in at least $869.5 million
in inappropriate or unsupported loan approvals. SBA also has not aggressively pursued recovery of 7(a)
improper payments.

The Office of Capital Access (OCA) has taken actions to correct many of the deficiencies identified by the OIG.
For example, the agency has (1) acquired a statistician to ensure its sample selection and projection of results are
in compliance with Office of Management and Budget (OMB) requirements, (2) established a pilot program for
disputed denial, repair and improper payment decisions on 7(a) loans, and (3) developed and implemented a
corrective action plan. However, additional actions are needed to accurately report, significantly reduce, and
recover improper payments. OCA needs to incorporate into formal policy (1) the improper payment review
processes, (2) the denial, repair and improper payment dispute resolution process, and (3) the improper payment
recovery process. Furthermore, while OCA and the Office of Disaster Assistance (ODA) have acceptable
corrective action plans in place, they need to demonstrate that the corrective action plans are effective in
reducing improper payments in the 7(a) and Disaster Loan programs.

Challenge History                             Actions Accomplished (Green Status) during Past 4 FYs
Fiscal Year (FY) Issued: 2010              N/A               N/A               N/A                N/A
                                                                                          Status at end of
                             Recommended Actions for FY 2012                                  FY 2011
                                                                                                 Disaster      7(a)
1. Ensure that processes used to calculate the improper payment rate for disaster and 7(a) loans
                                                                                                 Green      Orange
   are designed to effectively identify improper payments as defined by OMB Circular A-123.
2. Reassign responsibility for final approval of disputed denial, repair, and improper payment
                                                                                                  N/A        Orange
   decisions from OFA to OCRM to ensure an adequate and timely resolution of disputes.
3. Develop and implement corrective action plans to reduce improper payments in the 7(a) and
                                                                                                 Green      Green 
   Disaster Loan programs. (Previously action #4)
4. Establish a process and time standards to expeditiously recover improper payments
                                                                                                  N/A        Orange
   identified during agency reviews and OIG audits. (Previously action #5)
5. Demonstrate that corrective action plans are effective in reducing improper payments in the
                                                                                                  New          New
   7(a) and Disaster Loan programs.
             Green-Implemented Yellow-Substantial Progress Orange-Limited Progress Red-No Progress



                                                          9
                                     Appendix: Relevant Reports

Most of the SBA OIG Reports listed can be found at http://www.sba.gov/office-of-inspector-general.

Challenge 1:

   SBA OIG, SBA’s Planning and Award of the Customer Relationship Management Contracts, ROM 10-16,
    June 29, 2010.
   Interagency Task Force on Federal Contracting Opportunities for Small Businesses Report, September 2010.
   SBA Advocacy, Analysis of Type of Business Coding for the Top 1,000 Contractors Receiving Small Business
    Awards in FY 2002, December, 2004.
   The Center for Public Integrity, The Big Business of Small Business: Top defense contracting companies reap
    the benefits meant for small businesses, September 29, 2004.
   The Center for Public Integrity, The Pentagon’s $200 Million Shingle: Defense data shows billions in mistakes
    and mislabeled contracts, September 29, 2004.
   SBA OIG, Audit of SBA's Administration of the Procurement Activities of Asset Sale Due Diligence Contracts
    and Task Orders, Report #4-16, March 17, 2004, pp. 8-9.
   GAO, Contract Management: Reporting of Small Business Contract Awards Does Not Reflect Current Business
    Size, GAO-03-704T. May 7, 2003.
   The Small Business Committee, U.S. House of Representatives Hearing, Are Big Businesses Being Awarded
    Contracts Intended for Small Businesses? Testimony of Mr. Fred C. Armendariz, Associate Deputy
    Administrator, SBA, May 7, 2003.
   The Small Business Committee, U.S. House of Representatives Hearing, Are Big Businesses Being Awarded
    Contracts Intended for Small Businesses? Testimony of Mr. Felipe Mendoza, Associate Administrator, Office
    of Small Business Utilization, U.S. General Services Administration, May 7, 2003.
   SBA OIG, Review of Selected Small Business Procurements, Report #5-16, March 8, 2005.
   SBA OIG, SBA Small Business Procurement Awards Are Not Always Going to Small Businesses, Report
    #5-14, February 24, 2005.

Challenge 2:

   SBA OIG, Weaknesses Identified During the FY 2010 Federal Information Security Management Act Review,
    Report 11-06, January, 28, 2011
   SBA OIG, Audit of SBA’s FY 2010 Financial Statements, Report 11-03, November 12, 2010
   SBA OIG, Audit of SBA’s FY 2009 Financial Statements, Report #10-04, November 13, 2009
   SBA OIG, SBA’s FY2008 Financial Statements, Report #9-03, November 14, 2008
   SBA OIG, Audit of SBA’s Financial Statements for FY 2006, Report #7-03, November 15, 2006
   SBA OIG, Audit of SBA’s Information System Controls for FY 2004, Report #5-12, February 24, 2005

Challenge 3:

   OPM, 2011 Federal Employee Viewpoint Survey
   Partnership for Public Service, Best Places to Work in the Federal Government 2010
   OPM, 2010 Federal Employee Viewpoint Survey
   SBA OIG, The Colorado District Office’s Servicing of 8(A) Business Development Program Participants,
    Report #10-15, September 30, 2010
   SBA OIG, Adequacy of Procurement Staffing and Oversight of Contractors Supporting the Procurement
    Function, ROM 10-13, April 9, 2010
   SBA OIG, SBA's Administration of the Microloan Program under the Recovery Act, ROM 10-10,
    December 28, 2009
   Partnership for Public Service, Best Places to Work in the Federal Government 2009
   OPM, 2008 Federal Human Capital Survey

                                                       10
   GAO, Agency Should Assess Resources Devoted to Contracting and Improve Several Processes in the 8(a)
    Program, GAO-09-16, November 2008
   GAO, Opportunities Exist to Build on Leadership’s Efforts to Improve Agency Performance and Employee
    Morale, GAO-08-995, September 2008
   SBA OIG, Non-Native Managers Secured Millions of Dollars from 8(a) Firms Owned by Alaska Native
    Corporations through Unapproved Agreements that Jeopardize the Firms’ Program Eligibility, Report #8-14,
    August 7, 2008
   GAO, Opportunities Exist to Improve Oversight of Women’s Business Centers and Coordination Among
    SBA’s Business Assistance Programs, GAO-08-49, November 2007
   SBA OIG, Audit of Two 8(a) Sole-Source Contracts Awarded to Contractors in SBA’s Mentor
    Protégé Program, Report #7-19, March 30, 2007
   SBA OIG, Management Advisory Report on the Transfer of Operations to the National Guaranty Purchase
    Center, Report #4-39, August 31, 2004
   GAO, Small Business Administration: Progress Made, but Transformation Could Benefit from Practices
    Emphasizing Transparency and Communication, GAO-04-76, October 2003
   GAO, Results Oriented Cultures: Implementation Steps to Assist Mergers and Organizational Transformations,
    GAO-03-699, July 2003
   GAO, Small Business Administration: Workforce Transformation Plan is Evolving, GAO-02-931T, July 16,
    2002
   SBA OIG, Modernizing Human Capital Management, Report #2-20, May 31, 2002
   GAO, Small Business Administration: Current Structure Presents Challenges for Service Delivery, GAO-02-17,
    October 2001
   GAO, Small Business Administration: Steps Taken to Better Manage its Human Capital, but More Needs to be
    Done, GAO/T-GGD/AIMD-00-256, July 20, 2000
   SBA OIG, A Framework for Considering the Centralization of SBA Functions, November 1996

Challenge 4:

   SBA OIG, Origination and Closing Deficiencies Identified In 7(a) Recovery Act Loan Approvals, Report
    #11-07, September 30, 2011
   SBA OIG, Material Deficiencies Identified in Five 7(a) Recovery Act Loans Resulted in $2.7 Million of
    Questioned Costs, Report #11-06, August 25, 2011
   SBA OIG, Banco Popular Did Not Adequately Assess Borrower Repayment Ability When Originating
    Huntington Learning Center Franchise Loans, Report #11-16, July 13, 2011
   SBA OIG, Material Deficiencies Identified in Four 7(a) Recovery Act Loans Resulted in $3.2 Million of
    Questioned Costs, Report #11-05, June 29, 2011
   SBA, OIG America’s Recovery Capital Loans Were Not Originated and Closed In Accordance With SBA’s
    Policies and Procedures, Report #11-03, March 2, 2011
   SBA OIG, Material Deficiencies Identified in Early-Defaulted and Early-Problem Recovery Act Loans, #10-19,
    September 24, 2010
   SBA OIG, SBA’s Management of the Backlog of Post-purchase Reviews at the National Guaranty Purchase
    Center, #9-18, August 25, 2009
   SBA OIG, , The Small Business Administration’s Fiscal Year 2008 Improper Payment Rate for the 7(a)
    Guaranty Loan Program #9-16, July 10, 2009
   SBA OIG, Review of Key Unresolved OIG Audit Recommendations in Program Areas Funded by the
    American Recovery and Reinvestment Act and Related Activities Need to Safeguard Funds, #ROM 09-1,
    April 30, 2009
   SBA OIG, Audit of the Liquidation Process at the National Guaranty Purchase Center, #9-08, January 30, 2009
   SBA OIG, Audit of Six SBA Guaranteed Loans, #8-18, September 8, 2008
   SBA OIG, Audit of Loan Classifications and Overpayments on Secondary Market Loans, #8-09, March 26,
    2008
   SBA OIG, Audit of UPS Capital Business Credit’s Compliance with Selected 7(a) Lending Requirements,
    #8-08, March 21, 2008


                                                      11
   SBA OIG, Audit of the Guarantee Purchase Process for Section 7(a) Loans at the National Guaranty Purchase
    Center, Report #7-23, May 8, 2007
   SBA OIG, Audit of Deficiencies in OFA’s Purchase Review Process for Backlogged Loans,
    Report #6-35, September 29, 2006
   SBA OIG, Survey of the Quality Assurance Review Process, Report #6-26, July 12, 2006
   SBA OIG, Audit of SBA’s Implementation of the Improper Payments Information Act, Report #6-25,
    June 21, 2006
   SBA OIG, Management Advisory Report on the Transfer of Operations to the National Guaranty Purchase
    Center, Report #4-39, August 31, 2004
   SBA OIG, Audit of the Guaranty Purchase Process, Report #3-15, March 17, 2003
   SBA OIG, Improvements are Needed in Small Business Lending Company Oversight Process,
    Report #2-12, March 21, 2002
   GAO, Major Management Challenges and Program Risks, GAO-01-260, January 2001

Challenge 5:

   SBA OIG, SBA’s Oversight of SBA Supervised Lenders, Report #8-12, May 9, 2008
   SBA OIG, UPS Capital Compliance with Selected 7(a) Lending Requirements, Report #8-08, March 21, 2008
   GAO, Small Business Administration: Additional Measures Needed to Assess 7(a) Loan Program’s
    Performance, GAO-07-769, July 13, 2007
   SBA OIG, SBA’s Oversight of Business Loan Center, LLC, Report #7-28, July 11,2007.
   SBA OIG, SBA’s Use of the Loan and Lender Monitoring System, Report #7-21, May 2, 2007.
   SBA OIG, Audit of the Office of Lender Oversight Corrective Action Process, Report #7-18, March 14, 2007.
   GAO, Small Business Administration: Improvements Made, But Loan Programs Face Ongoing Management
    Challenges, GAO-06-605T, April 6, 2006
   SBA OIG, SBA’s Administration of the Supplemental Terrorist Activity Relief (STAR) Loan Program, Report
    #6-09, December 23, 2005
   GAO, Small Business Administration: New Service for Lender Oversight Reflects Some Best Practices, But
    Strategy for Use Lags Behind, GAO-04-610, June 8, 2004
   GAO, Continued Improvements Needed in Lender Oversight, Report #03-90, December 2002
   SBA OIG, Impact of Loan Splitting on Borrowers and SBA, Advisory Memorandum Report #2-31,
    September 30, 2002
   SBA OIG, Improvements needed in SBLC Oversight, Advisory Memorandum Report, #2-12, March 20, 2002
   SBA OIG, Preferred Lender Oversight Program, Report #1-19, September 27, 2001
   SBA OIG, SBA Follow-up on SBLC Examinations, Report #1-16, August 17, 2001

Challenge 6:

   SBA OIG, Audit on the Effectiveness of the SBA’s Surveillance Review Process, Report # 11-11, March 31,
    2011
   SBA OIG, Audit of Two 8(a) Sole –Source Contracts Awarded to Contractors in SBA’s Mentor Protégé
    Program, Report #7-19, March 30, 2007
   SBA OIG, Audit of Monitoring Compliance with 8(a) Business Development Regulations During 8(a) Business
    Development Contract Performance, Report #6-15, March 16, 2006
   SBA OIG, Business Development Provided by SBA’s 8(a) Business Development Program, Report #4-22,
    June 2, 2004.
   SBA OIG, SACS/MEDCOR: Ineffective and Inefficient, Report #4-15, March 9, 2004
   SBA OIG, Section 8(a) Program Continuing Eligibility Reviews, Report #4-3-H-006-021, September 30, 1994




                                                      12
Challenge 7:

   SBA OIG, Applicant Character Verification in SBA’s Business Loan Program, Report #3-43, April 5, 2001
   SBA OIG, Summary Audit of Section 7(a) Loan Processing, Report #0-03, January 11, 2000
   SBA OIG, Loan Agents and the Section 7(a) Program, Report #98-03-01, March 31, 1998
   SBA OIG, Fraud Detection in SBA Programs, Report #97-11-01, November 24, 1997
   SBA OIG, Operation Cleansweep Memorandum, August 21, 1996

Challenge 8:

   SBA OIG, Adequacy of Quality Assurance Oversight of the Loan Management and Accounting System
    Project, Report 10-14, September 13, 2010
   SBA OIG, Review of Allegations Concerning How the Loan Management and Accounting System
    Modernization Project is Being Managed, Report #9-17 July 30, 2009
   SBA OIG, Planning for the Loan Management and Accounting System Modernization and Development Effort,
    Report #8-13, May 14, 2008
   SBA OIG, SBA Needs to Implement a Viable Solution to its Loan Accounting System Migration Problem,
    Report #5-29, September 20, 2005 – all recommendations closed
   GAO, Information Technology: Agencies Need to Improve the Accuracy and Reliability of Investment
    Information, GAO-06-250, January 12, 2006.
   GAO, Major Management Challenges and Program Risks: Small Business Administration, GAO-03-116,
    January 1, 2003
   GAO, SBA Loan Monitoring System: Substantial Progress Yet Key Risks and Challenges Remain, Testimony
    of Joel C. Willemssen, Director, Civil Agencies Information Systems Accounting and Information Management
    Division, Before the Subcommittee on Government Programs Statement Committee on Small Business, House
    of Representatives, GAO/T-AIMD-00-113, February 29, 2000
   GAO, SBA Needs to Establish Policies and Procedures for Key IT Processes, Accounting and Information
    Management Division, GAO/AIMD-00-170, May 31, 2000

Challenge 9:

   SBA OIG, Origination and Closing Deficiencies Identified In 7(a) Recovery Act Loan Approvals, Report
    #11-07, September 30, 2011
   SBA OIG, Material Deficiencies Identified in Five 7(a) Recovery Act Loans Resulted in $2.7 Million of
    Questioned Costs, Report #11-06, August 25, 2011
   SBA OIG, Banco Popular Did Not Adequately Assess Borrower Repayment Ability When Originating
    Huntington Learning Center Franchise Loans, Report #11-16, July 13, 2011
   SBA OIG, Material Deficiencies Identified in Four 7(a) Recovery Act Loans Resulted in $3.2 Million of
    Questioned Costs, Report #11-05, June 29, 2011
   SBA, OIG America’s Recovery Capital Loans Were Not Originated and Closed In Accordance With SBA’s
    Policies and Procedures, Report #11-03, March 2, 2011
   SBA OIG, Material Deficiencies Identified in Early-Defaulted and Early-Problem Recovery Act Loans, Report
    #10-19, September 24, 2010
   SBA OIG, SBA’s Management of the Backlog of Post-Purchase Reviews at the National Guaranty Purchase
    Center, Report #9-18, August 25, 2009
   SBA OIG, The Small Business Administration’s Fiscal Year 2008 Improper Payment Rate for the 7(a)
    Guaranty Loan Program, Report #9-16, July 10, 2009
   SBA OIG, Audit of Borrower Eligibility for Gulf Coast Disaster Loans, Report #9-09, March 31, 2009
   SBA OIG, The Small Business Administration’s Fiscal Year 2007 Improper Payment Rate for the Disaster
    Loan Program, Report #9-10, March 26, 2009
   SBA OIG, Audit of the Liquidation Process at the National Guaranty Purchase Center, Report #9-08,
    January 30, 2009

                                                     13
   SBA OIG, The Use of Proceeds From Gulf Coast Disaster Loans, Report #9-06, January 15, 2009
   SBA OIG, Disaster Loss Verification Process, Report #8-15, June 17, 2008
   SBA OIG, Review of the Adequacy of Supporting Documentation for Disbursements, Report #8-07,
    January 29, 2008
   SBA OIG, The Quality of Loans Processed Under the Expedited Disaster Loan Program, Report #7-34,
    September 28, 2007
   SBA OIG, SBA’s Quality Assurance Reviews of Loss Verifications, Report #7-29, July 23, 2007
   SBA OIG, Securing Collateral for Disaster Loan Disbursements, Report #7-22, May 9, 2007




                                                    14
